No. 20A-129

IN THE SUPREME COURT OF THE UNITED STATES

JEFFERSON DUNN, Commissioner,
Alabama Department of Corrections, and
TERRY RAYBON, Warden,
Holman Correctional Facility,
Applicants,
v.
WILLIE B. SMITH III,
Respondent.
OPPOSITION TO APPLICATION TO VACATE STAY OF EXECUTION

***CAPITAL CASE***
EXECUTION SET FOR
FEBRUARY 11, 2021 – 6:00 p.m. CST
Allyson duLac*
Spencer J. Hahn
Assistant Federal Defenders
FEDERAL DEFENDERS FOR THE
MIDDLE DISTRICT OF ALABAMA
817 South Court Street
Montgomery, Alabama 36104
(334) 834-2099
Spencer_Hahn@fd.org
Allyson_duLac@fd.org
* Counsel of Record

To the Honorable Clarence Thomas, Associate Justice of the Supreme Court
of the United States and Circuit Justice for the Eleventh Circuit:
INTRODUCTION
On February 11 at 6:00 p.m. CST, the State of Alabama is scheduled to carry
out the execution of Willie B. Smith III, a man with lifelong intellectual deficits as
demonstrated by an IQ of 64 at the low end and 75 at the high end. On February
10, 2021, the U.S. Court of Appeals for the Eleventh Circuit granted a stay of
execution. As explained below, equitable factors tip the scales in favor of the stay
so this Court should deny the Emergency Application to Vacate Stay of Execution.
On July 17, 1992, in its order sentencing Mr. Smith to death, the trial court
found that with an IQ score of 75, Mr. Smith functioned in “the borderline range
between mild retardation and low average intelligence.” (Dist. Ct. Doc. 48-2 at 32.)
Upon being sentenced, Mr. Smith was transferred to the custody of the Alabama
Department of Corrections (ADOC) and was interviewed as part of his custody
classification. In the report, the ADOC official noted that Mr. Smith “didn’t
understand the interview,” so the official “tried to explain what this interview was
about and the reason.” (Dist. Ct. Doc. 48-2 at 46) (emphasis added). This
document was signed by the warden, classification coordinator, and a member of
the central review board. Thus, from the time that Mr. Smith was sentenced to
death and placed in the custody of the ADOC, the State knew that he was
2

intellectually impaired and that he had difficulty understanding even basic
concepts and questions related to a routine prison intake interview.
Because of his intellectual deficits, Mr. Smith requires reasonable
accommodation to participate in certain benefits provided by the ADOC.
Reasonable accommodation is required by the Americans with Disabilities Act.1
But the ADOC deprived him of those benefits when it failed to provide reasonable
accommodations to assist him in understanding a highly complex and complicated
election form ADOC provided to all condemned prisoners regardless of their
disability. As a result, he was denied the opportunity to make a timely election to
Alabama’s nitrogen hypoxia method of execution. Because of ADOC’s denial of
his rights, Mr. Smith filed a civil complaint more than one year ago alleging a
violation of the Americans with Disabilities Act of 1990, 42 U.S.C. § 12101, et
seq. (“ADA”). What followed was a series of events that prevented Mr. Smith
from having his claim considered on the merits. Unless this Court upholds the
current stay, Mr. Smith will have his longstanding claim mooted by his execution.

1

The district court found: (1) that Smith has a substantial likelihood of establishing some degree
of intellectual disability that substantially limits one or more major life activities, (2) that the
evidence weighs slightly in favor of Smith having a substantial likelihood of establishing himself
as a qualified individual with a disability, and (3) the evidence weighs in favor of Smith having a
substantial likelihood of establishing he has been excluded from a public benefit and the State has
not disputed those findings.
3

PROCEDURAL HISTORY
On November 25, 2019, Mr. Smith filed a two-count complaint alleging that
the Alabama Department of Corrections (ADOC) violated the Americans with
Disabilities Act (ADA) when it denied him reasonable accommodations to assist
him in understanding a legal document it provided to all prisoners regarding the
prisoner’s right to elect an alternate method of execution. The U.S. District Court
for the Middle District of Alabama denied ADOC’s motion to dismiss the claim on
February 8, 2021, Smith v. Dunn, 2:19-cv-00927, but subsequently denied Mr.
Smith a stay of execution to litigate that same claim February 9, Smith v. Dunn,
2:19-cv-00927. Mr. Smith then sought an emergency stay of execution from the
Eleventh Circuit, which was granted on February 10, 2021. Smith v. Dunn, 11-2110413.
LEGAL STANDARD
The standard for granting a stay of execution is well-established. In
upholding a stay of execution, the Court should consider the prisoner’s likelihood
of success on the merits, the relative harm to the parties, and the extent to which
the prisoner has unnecessarily delayed his or her claims.2 Here, these factors
weigh in favor of staying Respondent’s execution. Moreover, because this Court

2

See Hill v. McDonough, 547 U.S. 573, 584 (2006); Nelson v. Campbell, 541 U.S. 637, 649-50
(2004).
4

has ultimate jurisdiction over the issues that could be raised, it has the authority to
protect its jurisdiction by staying an execution that would otherwise moot the
case—a step the Court took in Bucklew v. Lombardi, No. 13A1153.3
MR. SMITH HAS NOT UNNECESSARILY DELAYED
IN FILING HIS CLAIM
Because Mr. Smith filed his ADA claim more than one year before the
execution warrant even issued, he did not unnecessarily delay in bringing his claim.
This Court should deny the Applicants’ Emergency Application to Vacate Stay of
Execution and keep the stay in place so Mr. Smith has an opportunity to obtain relief
on his claim.
Perhaps because the Applicants recognize that Mr. Smith has a substantial
likelihood of success on the merits of his ADA claim, they spend most of its
Emergency Application relying upon other cases in which this Court vacated stays
of execution. And although the State attempts to include Mr. Smith in the same
category as two other Alabama prisoners who were denied a stay in 2019, the
circumstances here are drastically different.
In Ray v. Dunn, the prisoner filed a lawsuit only ten days prior to his
scheduled execution.4 In the order vacating the stay of execution, this Court said:

This Court “may issue all writs necessary or appropriate in aid of their respective jurisdictions
and agreeable to the usages and principles of law.” 28 U.S.C. § 1651(a).
3

4

Ray v. Dunn, No. 2:19-cv-00088, Compl. (M.D. Ala. Jan. 29, 2019), ECF No. 1.
5

“On November 6, 2018, the State scheduled Domineque Ray’s execution date for
February 7, 2019. Because Ray waited until January 28, 2019 to seek relief, we
grant the State’s application to vacate the stay.”5
The State’s reliance on Price v. Dunn, a case in which a lawsuit was filed
four months before an execution, is also inapposite to Mr. Smith’s case. There, the
state sought an execution warrant on January 11, 2019, and Price waited to file his
lawsuit the following month on February 8, 2019.6 The State answered the
complaint on February 26, 7 and on March 1, 2019, the Alabama Supreme Court set
Mr. Price’s execution for April 11, 2019.8 Because the State had answered the
Complaint, the parties were able to move forward in the lawsuit, filing substantive
motions.9 Price, however, still asked the Court to stay his execution and the State
argued he delayed because Price initiated “the current § 1983 litigation two weeks
after the State moved for a date in 2019.”10

5

Dunn v. Ray, 139 S. Ct. 661 (2019) (emphasis added).

6

Dunn v. Price, No. 19-cv-00057, Compl. (S.D. Ala. Feb. 8, 2019), ECF No. 1.

Dunn v. Price, No. 19-cv-00057, Answer to Price’s Compl. (S.D. Ala. Feb. 26, 2019), ECF No.
12.
7

8

Dunn v. Price, No. 19-cv-00057, Scheduling Order (S.D. Ala. Mar. 1, 2019), ECF No. 18.

See generally Dunn v. Price, No. 19-cv-00057, Defs’ Not. Of Execution Date (S.D. Ala. Mar. 1,
2019), ECF No. 16-1.
9

Dunn v. Price, No. 19-cv-00057, Defs’ Reply to Price’s Opp. To Defs’ Mot. for Summary J.,
Opp. to Price’s Cross-Mot. for Summary J., and Opp. to Price’s Mot. for Stay of Execution (S.D.
Ala. Apr. 2, 2019), ECF No. 31 at 13.
10

6

The State of Alabama seems to raise the same argument when objecting to a
condemned prisoners’ request to for stay: whenever the prisoner may have brought
his claim, it will be too late. Ray’s case was filed ten days before his execution,
and that was too late. Price’s case was filed two weeks after the State moved for an
execution and four months before the scheduled execution, and that was too late.
Here, Mr. Smith filed his lawsuit before he even sought review in this Court on his
habeas corpus case and eleven months before the State asked for an execution date
and over fourteen months before an execution date was (eventually) set. But the
State, once again, argues that Mr. Smith has used delay tactics so this Court should
vacate the pending stay. This Court should not signal to litigants that no matter
how soon they bring a claim, it will never warrant a stay.
Setting aside the Alabama cases cited by the State, this Court’s recent
decision in Bucklew v. Precythe also does not support the State’s argument that Mr.
Smith delayed in filing his lawsuit. In that case, decided in 2019, the Missouri
prisoner filed his claim “six years after he said he had an as-applied challenge [to
the lethal-injection protocol] and just 12 days before his scheduled execution.”11
Moreover, Bucklew failed to comply with the “ Eighth Circuit’s express
instruction” in 2015, yet was still eventually permitted “extensive discovery” in his

11

Bucklew v. Precythe, Br. of Respondents, 2018 WL 3969564, at *16 (U.S. 2019) (emphasis
added).
7

case, and lost in 2017 on summary judgment.12 There, this Court reiterated that
“‘an applicant’s attempt at manipulation,’ ‘may be grounds for denial of a stay,”13
and charged courts with “polic[ing]carefully against attempts to use such
challenges as tools to interpose unjustified delay.”14
Here, Mr. Smith has not used his pending ADA lawsuit as a tool to interpose
unjustified delay or manipulate the system. Mr. Smith brought his claim well in
advance of his execution—indeed he filed the instant lawsuit prior to even seeking
review in this Court from the Eleventh Circuit’s denial of habeas relief.15 Mr.
Smith’s lawsuit was pending for over one year before Mr. Smith’s execution
warrant issued, and eleven months before the State even asked to set an execution
date. Indeed, when Mr. Smith brought his claim, he had no need to ask for a stay
of execution. These facts alone demonstrate that Mr. Smith did not unnecessarily
delay in seeking to litigate his claim and lean strongly in favor of this Court
upholding the stay.

12

Bucklew v. Precythe, 139 S. Ct. 1112, 1121 (2019).

13

Bucklew, 139 S. Ct. at 1134 (citing Gomez v. U.S. Dist. Court for N. Dist. of California, 503
U.S. 653, 654 (1992)). In Gomez, the Court found “abusive delay” and vacated a stay for a deathrow prisoner who challenged the constitutionality of lethal gas, a claim that could have been
brought a decade earlier and in one of the previous four habeas petitions Gomez, 503 U.S. at 65354.
14

Bucklew v. Precythe, 139 S. Ct. 1112, 1134 (2019) (emphasis added).

15

Mr. Smith filed his certiorari petition on February 19, 2020. Pet. for Writ of Cert., Smith v. Dunn,
No. 19-7745 (Feb. 19, 2020), available at https://www.supremecourt.gov/search.aspx?filename=
/docket/docketfiles/html/public/19-7745.html.
8

Moreover, had the case proceeded forward when the claim was initially raised,
Mr. Smith likely would not have needed a stay of execution to permit merits
review.16 The ADOC’s motion to dismiss the lawsuit was fully briefed on March 6,
2020—nearly nine months before the execution warrant issued and eight months
before the currently scheduled execution date. Despite the briefing being complete
in March, the district court took no action on the motion until nearly nine months
later, and then only after Mr. Smith notified the Court that an execution date had
been set on December 1, 2020.
At this posture, Mr. Smith has survived a motion to dismiss his ADA claim,
and should be permitted to litigate the issue. But the State of Alabama seeks to
execute him today. Mr. Smith’s only opportunity to vindicate his rights will be if
this Court allows the stay to remain in place, which will provide the district court the
opportunity to decide the merits of his claim.
MR. SMITH WILL SUFFER IRREPARABLE HARM IF THE STAY IS
VACATED
In balancing the harms that will occur if the current stay is – or is not – upheld,
the scales of equity tip in favor of Mr. Smith. The only reason that Mr. Smith is
scheduled to be executed today via lethal injection is that he is a cognitively disabled

A stay of execution is improper where a prisoner’s claim could have been “brought at such a
time as to allow consideration of the merits without requiring entry of a stay.” Hill v. McDonough,
547 U.S. 573, 584 (2006) (citing Nelson v. Campbell, 541 U.S. 637, 650 (2004)).
16

9

person to whom ADOC denied reasonable accommodations. As a result, he was
deprived of the benefit of the Election Form and thus understanding that he had the
option to select nitrogen hypoxia as his method of execution.
Mr. Smith recognizes that the State has an interest in carrying out its
sentences, and he is not asking this Court to uphold a stay that would prevent the
State of Alabama from ever carrying out his punishment. To the contrary. He seeks
only to be afforded the opportunity to choose nitrogen hypoxia instead of
midazolam as the method by which Alabama carries out his sentence. Once ADOC
has developed a new execution protocol, the State will be able to carry out its
punishment. At this stage, Mr. Smith should receive the benefit that ADOC
provided to all other condemned prisoners. It is only because ADOC failed to
provide reasonable accommodations to compensate for Mr. Smith’s intellectual
limitations that he now is facing execution via a midazolam protocol that has
continuously been challenged as causing pain and suffering.17
At the end of the day, if the stay is upheld, the State of Alabama will suffer
little, if any, harm, and Mr. Smith will be permitted to obtain relief on his claim in

17

See, e.g., Glossip v. Gross, 576 U.S. 863 (2015) (Oklahoma prisoners challenging midazolam
use in lethal injection); In re Ohio Execution Protocol Litig., 946 F.3d 287 (6th Cir. 2019) (Ohio
prisoner challenging midazolam use in lethal injection); McGehee v. Hutchinson, 854 F.3d 488
(8th Cir. 2017) (Arkansas prisoners challenging midazolam use in lethal injection); Arthur v.
Comm’r, Ala. Dep’t of Corr., 840 F.3d 1268 (11th Cir. 2016) (Alabama prisoner challenging
midazolam use in lethal injection).
10

the district court. On the other hand, Mr. Smith will suffer irreparable harm if he is
executed after being denied a benefit because his disability prevented him from
understanding the Election Form that ADOC distributed. He seeks redress under
the ADA, a law that was enacted to protect the rights of individuals, like Mr.
Smith, who have an intellectual disability. There is no provision to the ADA that
exempts condemned prisoners, and in fact, this Court has held that the statute
“unambiguously” applies to prisoners.18. Regardless of Mr. Smith’s convictions
and death sentence, he is entitled to the protections of the ADA. “[T]here have
been and there will continue to be instances of discrimination against
[intellectually disabled individuals] that are in fact invidious.”19 But this Court can
mitigate such discrimination by upholding the existing stay, ensuring that Mr.
Smith is not executed in violation of his rights under the ADA.
MR. SMITH CAN DEMONSTRATE A SUBSTANTIAL LIKELIHOOD OF
SUCCESS ON THE MERITS ON HIS PENDING CLAIM
To state a Title II ADA claim, a plaintiff generally must prove: (1) that he is
a qualified individual with a disability; (2) that he was either excluded from
participation in or denied the benefits of a public entity’s services, programs, or
activities, or was otherwise discriminated against by the public entity; and (3) that

18

Pennsylvania Dep't of Corr. v. Yeskey, 524 U.S. 206, 213 (1998).

19

City of Cleburne, Tex. v. Cleburne Living Ctr., 473 U.S. 432, 446 (1985).
11

the exclusion, denial of benefit, or discrimination was by reason of the plaintiff’s
disability.20
The district court denied Mr. Smith’s Emergency Motion for Stay of
Execution finding that while he showed a substantial likelihood of success on the
merits as to the first three prongs of his Title II ADA claim, he failed to show the
fourth prong, exclusion or denial based on disability. This finding was an abuse of
discretion and the lack of discovery is highly relevant as the only prong of the Title
II ADA claim that the district court found Mr. Smith did not satisfy is one where
he must show what the Applicants knew or should have known.
The court agreed that Mr. Smith did not need to show that he requested an
accommodation if the “the defendant otherwise had knowledge of an individual’s
disability and needs but took no action.” Indeed, the court found that “evidence
presented by the Defendants certainly suggests they had constructive notice of
Smith’s intellectual limitations—or, at the very least, that he was claiming to have
an intellectual disability.” However, the court required Mr. Smith to show that not
only did the prison officials know of Mr. Smith’s disabilities but had dealt with
those disabilities in the past and were aware of the need for accommodations. The
court concluded that “[t]hus, for a needed accommodation to be obvious, the

20

See Shotz v. Cates, 256 F.3d 1077, 1079 (11th Cir. 2001) (citing 42 U.S.C. § 12132).
12

Plaintiff must establish that ADOC had more than constructive knowledge of his
disability; it must be obvious that an accommodation was needed.”
Mr. Smith argued that the Applicants had this knowledge as there was a
history dating back to his initial intake at Holman Correctional Facility which
clearly showed that Mr. Smith had borderline intelligence and struggled with
comprehension and required accommodation in the form of assistance in
understanding concepts and language. The court acknowledged but rejected this
history because “even if the State’s knowledge of the Plaintiff’s IQ scores are
properly imputed to the ADOC, that knowledge alone does not establish that the
ADOC should have known that Smith needed an accommodation.”
The court then turned to the “the hundreds of pages of Smith’s inmate and
health records do not reveal any evidence to demonstrate that his need for an
accommodation was known or obvious to the ADOC. In fact, Smith’s inmate and
health file provide the strongest evidence that it was not obvious the prison needed
to accommodate him.” This evidence was that the court “can find no comments or
notations that indicate the staff was even aware of his intellectual disability.”
Moreover, the court concluded that Mr. Smith had signed forms while in ADOC
custody and none of those forms indicated that he was accommodated “in any
way” and some of the forms indicated “that Mr. Smith himself had made
annotations.” Mr. Smith submits the actual annotation referenced by the court:
13

Indeed, the “annotation” and others like this made by Mr. Smith are
evidence of his need for a reasonable accommodation when provided with complex
information. Mr. Smith writes in print, does not use complete sentences, lacks
punctuation, misspells words, and converses on an elementary level.

Simply, this is not the writing of a person who could, without any
reasonable accommodation, understand and comprehend this Election Form, a
14

document distributed to Mr. Smith by the Applicants without any offer of
assistance or explanation:
ELECTION TO BE EXECUTED BY NITROGEN HYPOXIA
Pursuant to Act No. 2018-353, if I am to be executed, I elect that it be
by nitrogen hypoxia rather than by lethal injection.
This election is not intended to affect the status of any challenge(s)
(current or future) to my conviction(s) or sentence(s), nor waive my right to
challenge the constitutionality of any protocol adopted for carrying out
execution by nitrogen hypoxia.
Dated this _______ day of June, 2018.
Yet, the court determined that Mr. Smith’s “need” resulting from his
disability – the necessary reasonable accommodation to participate in the service
and benefit of the Election Form – was not obvious. This was a clear abuse of
discretion.
The Applicants wrongly asserted that “Smith contended that his intellectual
disability was obvious, but he failed to present evidence that DefendantsAppellants knew of this supposed disability or—and this is important—his need
for accommodation as to the courtesy hypoxia form specifically.” While Mr. Smith
has asserted that it would be difficult to show what the Applicants “knew” about
his need for an accommodation as to this singular and very specific form absent
discovery where he could depose the persons responsible for its selection and

15

institutional distribution, a review of the record shows that, in fact, there is ample
evidence of the Applicants’ knowledge of his need for accommodation as to the
form.
To be clear, the undisputed evidence shows that the Applicants “knew” that
the form they adopted as their own for distribution to death row inmates was
originally used by licensed attorneys equipped with the knowledge and expertise to
explain the 2018 change in Alabama law and its legal implication and
ramifications. The Applicants “knew” that because they arranged for those same
inmates to be present and available for a legal visit with their counsel on June 26,
2018, that this form required additional discussion and explanation. The Applicants
then took the same form used in this attorney-client consultation and distributed it
to a person (Mr. Smith) with a known IQ of 72. The Applicants “knew” Mr. Smith
had a 72 IQ and functions in the “borderline to low average range of intellectual
ability”21 because the expert retained by the Applicants in 2007 told them so. To
argue that Mr. Smith failed to present evidence that an accommodation was
necessary is simply without belief.
Moreover, the law cited by the court for the proposition that “where the
evidence did not demonstrate that defendants were explicitly aware of the
prisoner’s disabilities and resultant needs, courts have found the plaintiffs’
21

Id. at 2.
16

disabilities and need for accommodations were not obvious” are cases in which
courts determined the need for accommodation was not “open, obvious, and
apparent” involving depression and the need for accommodation in the form of a
suicide-proof cell where the prisoner was asked about and explicitly denied
currently having suicidal thoughts.”22 Depression resulting in suicidal tendencies is
not a permanent condition (so evidence that it existed prior to incarceration does
not demonstrate prison staff had current knowledge) whereas cognitive
deficiencies are permanent, and two of his IQ tests were conducted during his
incarceration while he was in the custody and control of the Applicants. None of
the evidence presented by the Applicants shows that Mr. Smith was asked if he had
cognitive or learning disabilities and denied it. Relying on this entire line of cases
was also an abuse of discretion.
Finally, it was known and the Applicants conceded in a 2016 consent decree
entered in the Middle District of Alabama that the ADOC was not adequately (if at
all) offering Title II ADA accommodations to prisoners on death row, in particular,
ADOC was not providing accommodations to those with learning disabilities or
intellectual disabilities. So, there would not be a record of an assessment of Mr.

22

Arenas v. Georgia Dep't of Corr., No. CV416-320, 2020 WL 1849362, at *13 (S.D. Ga. Apr.
13, 2020),Gonzales v. Bexar County, Texas, 2014 WL 12513177, at *5 (W.D. Tex. Mar. 20, 2014),
aff'd, sub nom. Gonzales v. Bexar County, 584 F. App'x 232 (5th Cir. 2014); Zaragoza v. Dallas
County, 2009 WL 2030436, at *1 (N.D. Tex. July 13, 2009)).
17

Smith’s needs for an accommodation nor would there be formal documentation of
an ADA request since none existed. Further, since the ADOC was subject to the
Consent Decree, they have not consistently had an ADA Facility Coordinator or
accommodations person or, really, a true working system in place to submit
requests. The affidavit provided by the Applicants from the ADA Coordinator,
Richard Lewis, shows that he was not employed in that position until October 16,
2020, more than two years after the election period. Yet, the Applicants
acknowledged in the 2016 Consent Decree that accommodations should be
provided to inmates with a 75 or below. All of this information shows that Mr.
Smith has a substantial likelihood of success on the merits by establishing that the
Applicants knew, not only of his disability, but of his need for an accommodation.
Finally, the district court relying solely on the records of the Applicants is
particularly problematic given that the Alabama Department of Corrections has
long been recognized for its failures to provide prison conditions which comport
with the Eighth Amendment. The following summary of Commissioner Dunn’s
testimony (and that of his subordinate) in long-running Eighth Amendment prison
conditions litigation in the Middle District of Alabama makes this clear:
The plaintiffs’ case then proceeded with testimony from
Commissioner Dunn, who aptly described the prison system as
wrestling with a “two-headed monster”: overcrowding and
understaffing. Dunn Testimony at 26. The court also heard from
Associate Commissioner Naglich and MHM's program director
18

Houser, for whom overcrowding and understaffing (both as to
correctional staff, as noted by Dunn, and mental-health staff) were a
mantra. They, with admirable candor, as with many other fact
witnesses and the experts from both sides, essentially agreed that the
staffing shortages, combined with persistent and significant
overcrowding, contribute to serious systemic deficiencies in the
delivery of mental-health care.
The inadequacies in the mental-health care system start at the door,
with intake screening for prisoners who need mental-health care.23
Relying on Applicants’ records is problematic because they were generated
and maintained by a system “many fact witnesses and experts from both sides”
agreed was seriously and systemically deficient—the result of what Commissioner
Dunn described as a long-running battle with a “two-headed monster.” These
records—provided in a vacuum without opportunity to examine or rebut24 less than
one day before the district court determined the Mr. Smith failed to show a
substantial likelihood of success on the merits —are not helpful to the Applicants,
and if anything, support Mr. Smith’s argument. In finding otherwise, the district
court abused its discretion.

23

Braggs v. Dunn, 257 F. Supp. 3d 1171, 1184 (M.D. Ala. 2017).

“Despite twice refusing to provide Mr. Smith with his own ADOC Health Records for over a
year, the Applicants managed to produce 803 pages of never-seen before Bates-stamped health
records – sorted and distinguished by their perceived significance to the litigation to the court . . .
in fewer than 9 hours.” Nowhere in their argument regarding delay do Applicants address their
failure to provide these records to Mr. Smith, let alone the remarkable speed with which they were
able to generate and analyze the records when it was potentially to their benefit.
24

19

CONCLUSION
Because Mr. Smith can demonstrate a likelihood of success on the merits of
his ADA claim, and because he attempted to avail himself of the protections
afforded to him as a person with a disability more than one year before the State
scheduled an execution, this Court should exercise its equitable power and allow
the current stay to remain in place.

/s/ Allyson R. du Lac*
ALLYSON R. DU LAC
/s/ Spencer J. Hahn
SPENCER J. HAHN
FEDERAL DEFENDERS FOR THE MIDDLE
DISTRICT OF ALABAMA
817 SOUTH COURT STREET
MONTGOMERY, ALABAMA 36104
(334) 834-2099
Allyson_duLac@fd.org
Spencer_Hahn@fd.org
* Counsel of record

20

